                                                  69452                       Federal Register / Vol. 75, No. 218 / Friday, November 12, 2010 / Notices

                                                  DEPARTMENT OF HEALTH AND                                552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,            DEPARTMENT OF HEALTH AND
                                                  HUMAN SERVICES                                          as amended. The grant applications and                HUMAN SERVICES
                                                                                                          the discussions could disclose
                                                  National Institutes of Health                           confidential trade secrets or commercial              National Institutes of Health
                                                                                                          property such as patentable material,
                                                  Center for Scientific Review; Notice of                 and personal information concerning                   National Institute of Allergy and
                                                  Closed Meeting                                          individuals associated with the grant                 Infectious Diseases; Notice of Closed
                                                                                                          applications, the disclosure of which                 Meeting
                                                    Pursuant to section 10(d) of the
                                                  Federal Advisory Committee Act, as                      would constitute a clearly unwarranted                  Pursuant to section 10(d) of the
                                                  amended (5 U.S.C. App.), notice is                      invasion of personal privacy.                         Federal Advisory Committee Act, as
                                                  hereby given of the following meeting.                    Name of Committee: Center for Scientific            amended (5 U.S.C. App.), notice is
                                                    The meeting will be closed to the                     Review Special Emphasis Panel, Member                 hereby given of the following meeting.
                                                  public in accordance with the                           Conflict: Behavioral Aspects of HIV/AIDS.               The meeting will be closed to the
                                                  provisions set forth in sections                          Date: December 3, 2010.                             public in accordance with the
                                                  552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,                Time: 11 a.m. to 1 p.m.                             provisions set forth in sections
                                                  as amended. The grant applications and                    Agenda: To review and evaluate grant                552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
                                                  the discussions could disclose                          applications.                                         as amended. The grant applications and
                                                  confidential trade secrets or commercial                  Place: National Institutes of Health, 6701          the discussions could disclose
                                                  property such as patentable material,                   Rockledge Drive, Bethesda, MD 20892                   confidential trade secrets or commercial
                                                  and personal information concerning                     (Virtual Meeting).
                                                                                                                                                                property such as patentable material,
                                                                                                            Contact Person: Mark P. Rubert, PhD,
                                                  individuals associated with the grant                                                                         and personal information concerning
                                                                                                          Scientific Review Officer, Center for
                                                  applications, the disclosure of which                                                                         individuals associated with the grant
                                                                                                          Scientific Review, National Institutes of
                                                  would constitute a clearly unwarranted                  Health, 6701 Rockledge Drive, Room 5218,              applications, the disclosure of which
                                                  invasion of personal privacy.                           MSC 7852, Bethesda, MD 20892, 301–435–                would constitute a clearly unwarranted
                                                    Name of Committee: Center for Scientific              1775, rubertm@csr.nih.gov.                            invasion of personal privacy.
                                                  Review Special Emphasis Panel, Member                   (Catalogue of Federal Domestic Assistance               Name of Committee: National Institute of
                                                  Conflict: Clinical Oncology and                         Program Nos. 93.306, Comparative Medicine;            Allergy and Infectious Diseases Special
                                                  Chemoprevention.                                        93.333, Clinical Research, 93.306, 93.333,            Emphasis Panel; B Cell Responses.
                                                    Date: December 1, 2010.                                                                                       Date: January 11, 2011.
                                                                                                          93.337, 93.393–93.396, 93.837–93.844,
                                                    Time: 4 p.m. to 5 p.m.                                                                                        Time: 1 p.m. to 5 p.m.
                                                                                                          93.846–93.878, 93.892, 93.893, National
                                                    Agenda: To review and evaluate grant                                                                          Agenda: To review and evaluate grant
                                                  applications.                                           Institutes of Health, HHS)
                                                                                                                                                                applications.
                                                    Place: National Institutes of Health, 6701              Dated: November 5, 2010.                              Place: National Institutes of Health, 6700B
                                                  Rockledge Drive, Bethesda, MD 20892.                    Jennifer S. Spaeth,                                   Rockledge Drive, Bethesda, MD 20817
                                                  (Telephone Conference Call)                                                                                   (Telephone Conference Call).
                                                    Contact Person: Sharon K. Gubanich, PhD,              Director, Office of Federal Advisory
                                                                                                                                                                  Contact Person: Lynn Rust, PhD, Scientific
                                                  Scientific Review Officer, Center for                   Committee Policy.
                                                                                                                                                                Review Officer, Scientific Review Program,
                                                  Scientific Review, National Institutes of               [FR Doc. 2010–28469 Filed 11–10–10; 8:45 am]          Division of Extramural Activities, NIAID/
                                                  Health, 6701 Rockledge Drive, Room 6214,                BILLING CODE 4140–01–P                                NIH/DHHS, Room 3120, 6700B Rockledge
                                                  MSC 7804, Bethesda, MD 20892, (301) 435–                                                                      Drive, MSC 7616, Bethesda, MD 20892,
                                                  1767, gubanics@csr.nih.gov.                                                                                   301–402–3938, lr228v@nih.gov.
                                                  (Catalogue of Federal Domestic Assistance               DEPARTMENT OF HEALTH AND                              (Catalogue of Federal Domestic Assistance
                                                  Program Nos. 93.306, Comparative Medicine;              HUMAN SERVICES                                        Program Nos. 93.855, Allergy, Immunology,
                                                  93.333, Clinical Research, 93.306, 93.333,                                                                    and Transplantation Research; 93.856,
                                                  93.337, 93.393–93.396, 93.837–93.844,                   National Institutes of Health                         Microbiology and Infectious Diseases
                                                  93.846–93.878, 93.892, 93.893, National                                                                       Research, National Institutes of Health, HHS)
                                                  Institutes of Health, HHS)                              Center for Scientific Review; Amended                   Dated: November 4, 2010.
                                                    Dated: November 5, 2010.                              Notice of Meeting                                     Jennifer S. Spaeth,
                                                  Jennifer S. Spaeth,                                                                                           Director, Office of Federal Advisory
                                                  Director, Office of Federal Advisory                      Notice is hereby given of a change in               Committee Policy.
                                                  Committee Policy.                                       the meeting of the Center for Scientific
                                                                                                                                                                [FR Doc. 2010–28459 Filed 11–10–10; 8:45 am]
                                                  [FR Doc. 2010–28468 Filed 11–10–10; 8:45 am]            Review Special Emphasis Panel,
                                                                                                                                                                BILLING CODE 4140–01–P
                                                  BILLING CODE 4140–01–P
                                                                                                          November 22, 2010, 1:30 p.m. to
                                                                                                          November 22, 2010, 5 p.m., National
                                                                                                          Institutes of Health, 6701 Rockledge
                                                                                                                                                                DEPARTMENT OF HEALTH AND
                                                  DEPARTMENT OF HEALTH AND                                Drive, Bethesda, MD 20892 which was
                                                                                                                                                                HUMAN SERVICES
                                                  HUMAN SERVICES                                          published in the Federal Register on
                                                                                                          October 20, 2010, 75 FR 64736.                        Office of Inspector General
                                                  National Institutes of Health                             The meeting will be held November
                                                                                                          29, 2010. The meeting time and location               Solicitation of Information and
                                                  Center for Scientific Review; Notice of                                                                       Recommendations for Supplementing
                                                                                                          remain the same.
                                                  Closed Meeting                                                                                                the Guidance Provided in the Special
mstockstill on DSKH9S0YB1PROD with NOTICES




                                                                                                            The meeting is closed to the public.                Advisory Bulletin on the Effect of
                                                    Pursuant to section 10(d) of the
                                                                                                            Dated: November 4, 2010.                            Exclusion from Participation in Federal
                                                  Federal Advisory Committee Act, as
                                                  amended (5 U.S.C. App.), notice is                      Jennifer S. Spaeth,                                   Health Care Programs
                                                  hereby given of the following meeting.                  Director, Office of Federal Advisory
                                                                                                                                                                AGENCY: Office of Inspector General
                                                    The meeting will be closed to the                     Committee Policy.
                                                                                                                                                                (OIG), HHS.
                                                  public in accordance with the                           [FR Doc. 2010–28467 Filed 11–10–10; 8:45 am]
                                                                                                                                                                ACTION: Notice.
                                                  provisions set forth in sections                        BILLING CODE 4140–01–P




                                             VerDate Mar<15>2010   18:02 Nov 10, 2010   Jkt 223001   PO 00000   Frm 00057   Fmt 4703   Sfmt 4703   E:\FR\FM\12NON1.SGM   12NON1
                                                                              Federal Register / Vol. 75, No. 218 / Friday, November 12, 2010 / Notices                                                69453

                                                  SUMMARY:    This notice informs the public                 Inspection of Public Comments: All                   Dated: November 5, 2010.
                                                  that the Office of Inspector General                    comments received before the end of the               Daniel R. Levinson,
                                                  (OIG) intends to update the Special                     comment period are available for                      Inspector General.
                                                  Advisory Bulletin on the Effect of                      viewing by the public. All comments                   [FR Doc. 2010–28366 Filed 11–10–10; 8:45 am]
                                                  Exclusion from Participation in Federal                 will be posted on http://                             BILLING CODE 4152–01–P
                                                  Health Care Programs (64 FR 52791;                      www.regulations.gov as soon as possible
                                                  September 30, 1999) and solicits input                  after they have been received.
                                                  from the public for OIG to consider in                  Comments received timely will also be                 DEPARTMENT OF HOUSING AND
                                                  developing the updated bulletin.                        available for public inspection as they               URBAN DEVELOPMENT
                                                  DATES: To assure consideration, public                  are received at Office of Inspector
                                                  comments must be delivered to the                                                                             [Docket No. FR–5374–N–21]
                                                                                                          General, Department of Health and
                                                  address provided below by no later than                 Human Services, Cohen Building, 330                   Buy American Exceptions Under the
                                                  5 p.m. on January 11, 2011.                             Independence Avenue, SW.,                             American Recovery and Reinvestment
                                                  ADDRESSES: In commenting, please refer                  Washington, DC 20201, Monday                          Act of 2009
                                                  to file code OIG–115–N. Because of staff                through Friday from 8:30 a.m. to 4 p.m.
                                                  and resource limitations, we cannot                                                                           AGENCY:  Office of the Assistant
                                                                                                          To schedule an appointment to view
                                                  accept comments by facsimile (FAX)                                                                            Secretary for Public and Indian
                                                                                                          public comments, phone (202) 401–
                                                  transmission.                                                                                                 Housing, HUD.
                                                                                                          2206.
                                                     You may submit comments in one of                                                                          ACTION: Notice.
                                                  three ways (no duplicates, please):                     Background
                                                     • Electronically. You may submit                                                                           SUMMARY:   In accordance with the
                                                  electronic comments on specific                            The Special Advisory Bulletin on the               American Recovery and Reinvestment
                                                  recommendations and proposals                           Effect of Exclusion from Participation in             Act of 2009 (Pub. L. 111–05, approved
                                                  through the Federal eRulemaking Portal                  Federal Health Care Programs contains                 February 17, 2009) (Recovery Act), and
                                                  at http://www.regulations.gov.                          guidance which has proven to be                       implementing guidance of the Office of
                                                  (Attachments should be in Microsoft                     extremely important to excluded                       Management and Budget (OMB), this
                                                  Word, if possible.)                                     individuals and to all of those in the                notice advises that certain exceptions to
                                                     • By regular, express, or overnight                  health care industry who are concerned                the Buy American requirement of the
                                                  mail. You may send written comments                     with compliance. The health care                      Recovery Act have been determined
                                                  to the following address: Office of                     industry and health care professionals                applicable for work using Capital Fund
                                                  Inspector General, Department of Health                 have now had more than a decade of                    Recovery Formula and Competition
                                                  and Human Services, Attention: OIG–                     experience with the ramifications of                  (CFRFC) grant funds. Specifically, an
                                                  115–N, Room 5541, Cohen Building,                                                                             exception was granted to the Housing
                                                                                                          exclusion since OIG first published this
                                                  330 Independence Avenue, SW.,                                                                                 Authority of the County of Cook (HACC)
                                                                                                          bulletin in 1999. With time it has
                                                  Washington, DC 20201. Please allow                                                                            for the purchase and installation of
                                                                                                          become even more apparent that                        through-the-wall air conditioning units
                                                  sufficient time for mailed comments to
                                                                                                          exclusion has a significant impact, not               and Ground Fault Circuit Interrupter
                                                  be received before the close of the
                                                                                                          only on those who have been excluded                  (GFCI) outlets for the Riverdale Senior
                                                  comment period.
                                                     • By hand or courier. If you prefer,                 but also on entities that have employed               Apartments project.
                                                  you may deliver, by hand or courier,                    or contracted with excluded persons                   FOR FURTHER INFORMATION CONTACT:
                                                  your written comments before the close                  and been faced with liability for                     Dominique G. Blom, Deputy Assistant
                                                  of the comment period to Office of                      overpayments and civil monetary                       Secretary for Public Housing
                                                  Inspector General, Department of Health                 penalties as a result. As OIG’s                       Investments, Office of Public Housing
                                                  and Human Services, Cohen Building,                     compliance and enforcement activities                 Investments, Office of Public and Indian
                                                  330 Independence Avenue, SW.,                           in this area have increased, many health              Housing, Department of Housing and
                                                  Washington, DC 20201. Because access                    care providers have discovered that they              Urban Development, 451 7th Street,
                                                  to the interior of the Cohen Building is                employ excluded individuals and have                  SW., Room 4130, Washington, DC,
                                                  not readily available to persons without                self-disclosed to the OIG. Many health                20410–4000, telephone number 202–
                                                  Federal Government identification,                      care providers have also sought to                    402–8500 (this is not a toll-free
                                                  commenters are encouraged to schedule                   design compliance programs that will                  number). Persons with hearing- or
                                                  their delivery with one of our staff                    minimize the risk of submitting claims                speech-impairments may access this
                                                  members at (202) 619–1343.                              to a Federal health care program for                  number through TTY by calling the toll-
                                                     For information on viewing public                    items or services furnished, ordered, or              free Federal Information Relay Service
                                                  comments, please see the                                prescribed by an excluded individual.                 at 800–877–8339.
                                                  Supplementary Information section.                      In considering the content of the Special             SUPPLEMENTARY INFORMATION: Section
                                                  FOR FURTHER INFORMATION CONTACT:                        Advisory Bulletin, OIG is soliciting                  1605(a) of the Recovery Act provides
                                                  Patrice Drew, Department of Health and                  comments, recommendations, and other                  that none of the funds appropriated or
                                                  Human Services, Office of Inspector                     suggestions from concerned parties and                made available by the Recovery Act may
                                                  General, Office of External Affairs, (202)              organizations on how best to                          be used for a project for the
                                                  619–1368.                                               supplement the guidance provided in                   construction, alteration, maintenance, or
mstockstill on DSKH9S0YB1PROD with NOTICES




                                                  SUPPLEMENTARY INFORMATION:                              the Special Advisory Bulletin to address              repair of a public building or public
                                                     Submitting Comments: We welcome                      relevant issues and to provide useful                 work unless all of the iron, steel, and
                                                  comments from the public on this                        guidance to the industry. For example,                manufactured goods used in the project
                                                  Special Advisory Bulletin on the Effect                 OIG seeks comments on areas in which                  are produced in the United States.
                                                  of Exclusion from Participation in                                                                            Section 1605(b) provides that the Buy
                                                                                                          clarification and further guidance on the
                                                  Federal Health Care Programs. Please                                                                          American requirement shall not apply
                                                                                                          effect of exclusion may be helpful.
                                                  assist us by referencing the file code                                                                        in any case or category in which the
                                                  OIG–115–N.                                                                                                    head of a Federal department or agency


                                             VerDate Mar<15>2010   17:23 Nov 10, 2010   Jkt 223001   PO 00000   Frm 00058   Fmt 4703   Sfmt 4703   E:\FR\FM\12NON1.SGM   12NON1
